   United States Department of Agriculture
   Office of Inspector General




Supplemental Revenue Assistance Payments
Program – American Recovery and
Reinvestment Act of 2009




                                             Audit Report 50703-0001-31
                                             March 2012
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250




DATE:          March 12, 2012

AUDIT
NUMBER:        50703-0001-31

TO:            Bruce E. Nelson
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit

SUBJECT:       Supplemental Revenue Assistance Payments Program – American Recovery
               and Reinvestment Act of 2009


Attached is a copy of the final report on the subject audit. On February 14, 2012, we were
notified by the Farm Service Agency that an exit conference was not necessary to discuss the
subject draft audit report, nor did the agency desire to submit an official written response to the
report. The finding noted in this report has been previously reported; therefore, no
recommendation was made. No further response for this audit is necessary.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................3
Scope and Methodology...........................................................................................5
Abbreviations ...........................................................................................................7
Exhibit A – Statistical Sample Workbook Calculation Errors ...........................8
Exhibit B – Sites Visited ........................................................................................10
Exhibit C – Statistical Sampling Plan ..................................................................11
Supplemental Revenue Assistance Payments Program – American
Recovery and Reinvestment Act of 2009

Executive Summary

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009.1 In enacting the Recovery Act, Congress emphasized the need for
accountability and transparency in the expenditure of funds. The Recovery Act increased
assistance levels and expanded participation in the Farm Service Agency’s (FSA) Supplemental
Revenue Assistance Payments (SURE) Program. For the 2008 crop year, FSA paid out over
$2.1 billion in SURE Program benefits to over 103,000 producers. To validate producer
eligibility and ensure that eligible producers received proper payments for qualified losses, we
reviewed 125 statistically selected producers in 8 States who received approximately
$2.6 million in SURE Program payments. We also selected for review a random sample
consisting of 25 of the 300 payments that were part of FSA’s internal compliance review. We
did not identify any issues with producer eligibility. Nothing else came to our attention that
suggested FSA did not have adequate management controls in place to ensure program
participants complied with SURE Program provisions.

Our audit found that FSA county offices made errors when inputting data into the manual
workbook used to calculate the SURE Program payments. We found that 35 out of the
125 statistically sampled producers’ files we reviewed had workbook calculation errors (see
exhibit A). For example, these errors included entering the incorrect yield; the incorrect acreage;
the incorrect producer share; the incorrect price and/or the National Average Market Price; the
incorrect production to count; and the incorrect net indemnity. FSA’s own internal review,2 as
well as a previous Office of Inspector General (OIG) audit,3 identified errors consistent with
what we found. FSA has implemented additional automated controls and edits to the SURE
Program workbook that will help prevent these errors from recurring when issuing payments
for the 2009 and subsequent crop years.4

We also reviewed FSA’s controls over the Recovery Act requirement of additional
insurance purchases for some SURE Program participants. Though we discovered that 205 of
556 applicable producers may not have complied with these requirements, we were unable to
definitively determine their compliance without conducting a lengthy review of each individual
producer.5 Because less than one percent of the total SURE Program payments issued in our



1
  Public Law (P.L.) 111-5.
2
  A nationwide statistical review of 300 SURE Program payments totaling over $15.3 million was conducted
between April 21, 2010, and May 21, 2010.
3
  Audit Report 03024-1-11, Fiscal Year 2010 Farm Service Agency Farm Assistance Program Payments,
June 21, 2011.
4
  Legislative authority for the SURE Program ended on September 30, 2011. Producers must meet specific
eligibility requirements to receive SURE Program assistance for disasters that occurred on or before September 30,
2011, and affect fall 2011 and 2012 crops.
5
  The 205 producers received a total of $3.7 million.

                                                                         AUDIT REPORT 50703-0001-31              1
eight sample States was subject to these requirements6—and because FSA has since implemented
a spot check to verify producers’ compliance with this requirement—we decided not to report on
this issue.

Finally, we conducted an analysis of the amount of payments each producer received. We
combined all government payments a producer received for crop losses with its actual revenues
to determine if a producer had received payments greater than its expected farm revenue for a
particular year.7 After calculating the payment totals, we did not find any producers that
received more than their expected farm revenue.

Accordingly, we are not making any recommendations in this report, and no further action or
response to us is required.




6
 Only $10.1 million out of $1.1 billion was subject to the linkage requirement.
7
 Specifically, we combined actual farm revenues, SURE payments, and Risk Management Agency 50$indemnity
payments, and contrasted the total with what the producer would have received from its expected farm revenues.
Expected farm revenue is calculated by multiplying the acres that the producer has a share in, the RMA weighted
adjusted yield, the price, and the percentage share that the producer owns in the acres.

2     AUDIT REPORT 50703-0001-31
Background and Objectives

Background

The Food, Conservation, and Energy Act of 2008 (2008 Farm Bill) created the Agricultural
Disaster Relief Trust Fund, which financed five separate programs that comprehensively address
agricultural disasters.8 These programs were intended to create a permanent disaster fund to
replace the ad hoc disaster programs that had served as Congress’ primary instrument to disburse
disaster assistance until the 2008 Farm Bill. One of these programs, the SURE Program,
provides agricultural disaster assistance to producers who suffered qualifying crop production
losses, crop quality losses, or both, due to disasters, adverse weather, or other environmental
conditions. The SURE Program applies to losses incurred between the 2008 crop year and
September 30, 2011. The SURE Program is tailored to work in combination with Federal crop
insurance and the Noninsured Crop Disaster Assistance Program (NAP)9 to reduce producers’
financial risk.

In order to be eligible for the SURE Program, producers must have produced in a county that
received a Secretarial Disaster Declaration (including contiguous counties), and the producer
must have suffered at least a 10 percent production loss on at least one crop of economic
significance.10 A producer who did not produce in a disaster county may still be eligible for the
program if it suffered at least a 50-percent production loss. Furthermore, producers participating
in the SURE Program are required to carry crop insurance for all insurable crops and NAP
coverage for all non-insurable crops where NAP coverage is offered. However, for crop year
2008, producers who did not obtain crop insurance or NAP coverage were able to participate in
the SURE Program by paying a buy-in fee by September 16, 2008.

The Recovery Act extended the buy-in opportunity from September 16, 2008, to May 18, 2009.
The Recovery Act added a condition to the buy-in extension, requiring producers who bought in
during the extension to obtain crop insurance and/or NAP coverage for the next year insurance is
available for the crops the buy-in applied to.11 The Recovery Act also increased the assistance
for producers that suffered 2008 crop losses.




8
  P.L. 110-246, Title XV authorized $3.8 billion for the Agricultural Disaster Relief Trust Fund that financed five
separate programs that comprehensively address agricultural disasters over 4 years (FY 2008-FY 2011). The five
programs were the Supplemental Revenue Assistance Payments (SURE) Program, Livestock Indemnity Program
(LIP), Livestock Forage Disaster Program (LFP), Emergency Assistance for Livestock, Honeybees, and Farm
Raised Fish (ELAP), and the Tree Assistance Program (TAP).
9
  NAP was designed to reduce financial losses that occur when natural disasters cause a catastrophic loss of
production, or prevent planting of an eligible crop, by providing coverage equivalent to Risk Management Agency’s
RMA Catastrophic Risk Protection (CAT) insurance. NAP is limited to each commercial crop or agricultural
commodity, except livestock, for which CAT is not available.
10
   A crop of economic significance is a crop that contributes at least 5 percent of the expected revenue for a
producer’s whole farm.
11
   This requirement was waived for producers who qualified as limited resource or socially disadvantaged farmers.

                                                                         AUDIT REPORT 50703-0001-31              3
Objectives
The overall objectives of our audit were to assess whether (1) internal control procedures were
established; (2) program participants met eligibility requirements; (3) participants complied with
program requirements; and (4) FSA established effective compliance operations. Specifically,
we assessed FSA’s controls over SURE Program eligibility, Recovery Act buy-in provisions,
producers’ compliance with subsequent insurance purchase requirements, and SURE Program
payment processing.




4    AUDIT REPORT 50703-0001-31
Scope and Methodology

We conducted our audit of the SURE Program at the FSA and RMA national offices, at 8 FSA
State offices (located in Iowa, Kansas, Minnesota, Nebraska, North Dakota, Ohio, South Dakota,
and Wisconsin), as well as at 16 FSA county offices in these States (see exhibit B).

Our audit covered SURE Program payments made to producers for the 2008 crop year that
included a Recovery Act component in the payment. As of April 22, 2011, FSA had paid out
over $2.1 billion to over 103,000 producers in SURE Program benefits for the 2008 crop year.
These payments consisted of approximately $812 million in Recovery Act funds and
approximately $1.3 billion from the Agricultural Disaster Relief Trust Fund. Our audit scope
included only those producers who received Recovery Act funds as part of their total SURE
Program payment.12

We identified the top 10 States receiving SURE Program payments which represented over
72 percent of the total Recovery Act funds expended for the SURE Program.13 From the
10 States, we statistically selected 272 producers located in 30 counties using a two-stage
sample design (see exhibit C).14 We completed our review of States and counties in order of
selection, so that at the mid-point of our review, we could evaluate whether to continue or
conclude based on the audit results. We completed a review of 125 producers located in
16 counties and 8 States. Based on the results of our review, we decided to conclude the audit.

To accomplish our objectives, we performed the following audit procedures:

     ·   Reviewed applicable laws, regulations, and agency procedures related to the SURE
         program.
     ·   Interviewed FSA and RMA national office officials to gain an understanding of the
         SURE Program’s scope, coordination, and data sharing between FSA and RMA, overall
         program implementation, program requirements, and management controls.
     ·   Interviewed FSA State office officials to ascertain their roles and responsibilities for
         implementing and monitoring the program, including specific responsibilities related to
         the Recovery Act’s buy-in provisions and granting of equitable relief.
     ·   Interviewed county office personnel to understand their roles and responsibilities for
         administering the SURE Program.
     ·   Reviewed SURE Program files for each of the 125 selected producers, including the
         SURE Program application and all supporting eligibility documentation, interim

12
   As of April 22, 2011, approximately $1.9 billion in SURE program payments included approximately
$812 million in Recovery Act funding. About 6,400 producers were paid approximately $183 million from the
Agricultural Disaster Relief Fund and did not receive any Recovery Act funding as part of their SURE Program
payment. These 6,400 producers were not included in our sample because they did not receive any Recovery Act
funding.
13
   In the 10 States, FSA paid a total of $1.4 billion in SURE Program payments, of which approximately
$588 million was Recovery Act funds. The 10 States included Iowa, Kansas, Minnesota, Missouri, Nebraska,
North Dakota, Ohio, South Dakota, Texas, and Wisconsin.
14
   The sample of 272 producers represented over $5.5 million in SURE Program payments.

                                                                      AUDIT REPORT 50703-0001-31               5
       workbook calculations and all supporting documentation, and the 2008 SURE Program
       Interim Report (RMA download).

In fiscal year 2010, FSA conducted a nationwide statistical review of 300 SURE Program
payments that totaled over $15.3 million. To assess FSA’s review results, we randomly selected
25 of the 300 payments that FSA reviewed. The 25 payments were randomly selected from the
same 10 States included as part of our two-stage sample design. We reviewed the interim
workbook calculations to ensure that FSA county operations review staff identified all applicable
discrepancies, and that payments were accurate.

We conducted fieldwork between June 2011 and January 2012. We conducted the audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




6    AUDIT REPORT 50703-0001-31
Abbreviations
CAT............................. Catastrophic Risk Protection
FSA ............................. Farm Service Agency
NAP............................. Noninsured Crop Disaster Assistance Program
OIG ............................. Office of Inspector General
RMA ........................... Risk Management Agency
SURE .......................... Supplemental Revenue Assistance Payments




                                                                  AUDIT REPORT 50703-0001-31   7
Exhibit A – Statistical Sample Workbook Calculation Errors
                                                  Over
         Sample                                  (Under)
         Number            State      County     Payment        Description of Error
           4               Iowa       Adams        $15     Incorrect production to count
                                                           Incorrect acres and Direct and
                                                           Counter-Cyclical Program
             8             Iowa       Adams          $96   (DCP) Payment
                                                           Incorrect price, acres, and
             13            Iowa       Adams        $7,704  weighted adjusted yield
                                                           Incorrect indemnity and
             47            Iowa        Lucas     ($39,140) production to count
                                                           Incorrect guarantee basis,
                                                           indemnity, production to
                                                           count, and guarantee
             50            Iowa        Lucas      ($4,521) adjustment codes
             52            Iowa        Lucas      ($1,817) Incorrect acres
             57           Kansas      Bourbon       $370   Incorrect indemnity
             59           Kansas      Bourbon     ($3,085) Incorrect acres
             64           Kansas     McPherson    ($2,283) Incorrect NAMP15
                                                           Incorrect weighted adjusted
                                                           yield and counter cyclical (CC)
             66          Kansas      McPherson    $12,950 yield
             67          Kansas      McPherson      $827   Incorrect indemnity
             68          Kansas      McPherson     $1,395  Incorrect acres and share
             71          Kansas       Neosho        ($63)  Incorrect acres
             72          Kansas       Neosho        $537   Incorrect indemnity
             74          Kansas       Neosho      $13,066 Incorrect share
             81         Minnesota     Hubbard    ($14,624) Did not include CC yield data
                                                           Incorrect county expected
             83         Minnesota     Hubbard       $585   yield
                                                           Incorrect county expected
                                                           yield and maximum average
             85         Minnesota     Hubbard      $1,197  loss
                                                           Incorrect production to count
            123          Nebraska      Dixon        $172   and weighted adjusted yield
                                                           Incorrect production to count
                                                           and did not include the
                                                           weighted adjusted yield or CC
            124          Nebraska      Dixon        $172   yield data



15
     National Average Market Price

8        AUDIT REPORT 50703-0001-31
Exhibit A – Statistical Sample Workbook Calculation Errors
                                        Over
    Sample                             (Under)
    Number      State       County     Payment       Description of Error
      132    North Dakota   McHenry      $949    Incorrect NAMP
      144    North Dakota    Pierce       $36    Incorrect DCP payment
                                                 Incorrect share and maximum
     145     North Dakota    Pierce     ($1,736) average loss
                                                 Incorrect share, indemnity, and
     146     North Dakota    Pierce     ($6,884) guarantee basis
     149     North Dakota    Pierce      ($111)  Incorrect NAMP
     182         Ohio       Mahoning    ($1,470) Incorrect workbook version
     184         Ohio       Mahoning     $5,321  Incorrect acres
     199     South Dakota    Brown        ($39)  Incorrect NAMP
                                                 Did not include stage code
     211     South Dakota   Haakon         $60   adjustment factor
     212     South Dakota   Haakon     ($12,999) Incorrect acres and NAMP
     213     South Dakota   Haakon      ($3,476) Incorrect acres
     251      Wisconsin      Door        ($804)  Incorrect share
     252      Wisconsin      Door       ($4,975) Incorrect DCP payment
     254      Wisconsin      Door        ($541)  Incorrect share
     258      Wisconsin      Door        $5,290  Incorrect guarantee basis




                                                   AUDIT REPORT 50703-0001-31      9
Exhibit B – Sites Visited

                 State                   Locations Visited
                          State office, Urbandale, IA
                          Dallas County office, Adel, IA
                 Iowa
                          Lucas County office, Chariton, IA
                          Adams County office, Corning, IA
                          State office, Manhattan, KS
                          Jewell County office, Mankato, KS
                          Neosho County office, Erie, KS
                Kansas
                          Bourbon County office, Fort Scott, KS
                          Jefferson County office, Oskaloosa, KS
                          McPherson County office, McPherson, KS
                          State office, Fargo, ND
             North Dakota Pierce County office, Rugby, ND
                          McHenry County office, Towner, ND
                          State office, Huron, SD
             South Dakota Haakon County office, Philip, SD
                          Brown County office, Aberdeen, SD
                          State office, St. Paul, MN
              Minnesota
                          Hubbard County office, Park Rapids, MN
                          State office, Lincoln, NE
               Nebraska
                          Dixon County office, Ponca, NE
                          State office, Madison, WI
              Wisconsin
                          Door County office, Sturgeon Bay, WI
                          State office, Columbus, OH
                 Ohio
                          Mahoning County office, Salem, OH




10   AUDIT REPORT 50703-0001-31
Exhibit C – Statistical Sampling Plan
Objective:

Our sample was designed to support the audit objective of assessing whether SURE Program
participants met eligibility requirements and complied with program requirements.

Audit Universe:

Our universe for this audit was a list of the 879 counties from the top ten States that received
assistance. Over $1.4 billion in SURE Program benefits was distributed to participants in these
counties.

Sample Design and Modifications:

We observed that the majority of benefits were distributed to ten States.16 Based on this, we
concentrated the sample on these States. We identified 879 counties in these top 10 States that
distributed SURE Program benefits to participants. Therefore, we used a two-stage sample to
select which producer files were reviewed: Stage One selected which counties were to be
reviewed and Stage Two selected which producers from the Stage One counties were to be
reviewed.

In Stage One, we drew a random number for each county in the universe.17 The 879 counties
were ordered based on the random numbers, from lowest to highest; the sample for this stage
was the first 30 of the 879 counties.

The universe for Stage Two was the 2,783 participants that received SURE Program benefits in
the 30 counties selected in Stage One. Within each county selected at Stage One, we drew a
random number for each producer and ordered them based on the random numbers, from lowest
to highest. Our sample included 272 producers from the 30 counties.

We decided to use a stop or go approach, using the first 16 randomly-selected counties as a pilot
sample. We planned to review the selected producer files in the first 16 counties (125 producers)
and analyze the results of our findings at that point. This approach allowed us to make a
statistically-supportable decision of whether to continue the review for the remaining 14 counties
in the original sample.

The preceding design is summarized in the tables below:




16
     Iowa, Kansas, Minnesota, Missouri, Nebraska, North Dakota, Ohio, South Dakota, Texas, and Wisconsin.
17
     Random numbers were drawn using the Excel “Randbetween” function.

                                                                      AUDIT REPORT 50703-0001-31            11
Exhibit C – Statistical Sampling Plan

                                                  Stage One
                                      Universe:               Sample of
                                      Counties                Counties
                                        879                      30

                                                  Stage Two
        Counties Selected in Stage One,            Number of Producers         Number of Producers
         in Order of Random Selection             in Universe by County        Selected for Review
        Haakon County, South Dakota                         14                           4
        Jewell County, Kansas                                2                           2
        Mahoning County, Ohio                                3                           3
        Pierce County, North Dakota                        176                          13
        Hubbard County, Minnesota                            6                           5
        Lucas County, Iowa                                 100                          13
        Neosho County, Kansas                                8                           6
        Door County, Wisconsin                              30                          11
        Dallas County, Iowa                                 81                          13
        Dixon County, Nebraska                               2                           2
        Adams County, Iowa                                 146                          13
        Bourbon County, Kansas                              12                           7
        McHenry County, North Dakota                       228                          13
        Jefferson County, Kansas                             1                           1
        Brown County, South Dakota                         452                          13
        McPherson County, Kansas18                          10                           6
        Keokuk County, Iowa                                187                          13
        Anoka County, Minnesota                              3                           3
        Blue Earth County, Minnesota                         3                           3
        Gentry County, Missouri                            159                          13
        Platte County, Missouri                             31                          11
        Colfax County, Nebraska                            113                          13
        Richland County, North Dakota                      260                          13
        Henry County, Ohio                                  62                          13
        Lawrence County, Ohio                                5                           5
        Preble County, Ohio                                 86                          13
        Goliad County, Texas                                17                           8
        Wharton County, Texas                              360                          13
        Columbia County, Wisconsin                         125                          13
        Shawano County, Wisconsin                          101                          13
           Total                                          2,783                        272


18
 We reviewed the first 16 counties listed in the table. The last county we reviewed was McPherson County,
Kansas. The remaining 14 counties were not reviewed based on our stop or go decision.

12      AUDIT REPORT 50703-0001-31
Exhibit C – Statistical Sampling Plan

Results:

To support the audit objectives, we reviewed producer files and determined the number of SURE
Program participants that were non-compliant. However, after reviewing producer files in the
first 16 counties, we concluded that the only issues being found were previously identified by an
FSA review as well as a prior OIG audit. Based on these findings, we decided to end fieldwork
and issue a report without recommendations. Therefore, we did not run statistical projections as
they are not required for the report.




                                                           AUDIT REPORT 50703-0001-31         13
Informational copies of this report have been distributed to:

Administrator, Farm Service Agency        (2)
      Attn: Director, Operations Review and Analysis Staff

Administrator, Risk Management Agency (1)
      Attn: Deputy Administrator, Compliance

Government Accountability Office              (1)

Office of Management and Budget               (1)

Office of the Chief Financial Officer      (1)
       Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
